No. 18-1447 and No. 19-351
EEE

IN THE
Supreme Court of the Anited States

REPUBLIC OF HUNGARY and
Macyar ALLAMVASUTAK ZRT.,

Petitioners,
v.

ROSALIE SIMON, et al.,
Respondents.

FEDERAL REPUBLIC OF GERMANY, et al.,

Petitioners,
v.
ALAN PHILLIP, et al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

BRIEF OF PROFESSORS
SAMUEL ESTREICHER AND THOMAS H. LEE
AS AMICI CURIAE
IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,260 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 11, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
